IN THE SUPREME COURT OF THE UNITED STATES

TONY KING, )
) On Petition for Writ of
vs. ) Certiorari to the Missouri
) Supreme Court
STANLEY PAYNE, )
)
Respondent. )
PROOF OF SERVICE

Thereby certify that on June, 2021, in compliance with Supreme Court Rule
29.3, I served a copy of the following documents upon counsel for the respondent:
Petition for Writ of Certiorari to the Eight Circuit Court of Appeals; Motion to
Proceed In Forma Pauperis and Proof of Service.

Such service was obtained by mailing documents via first class mail with
postage fully prepaid and properly affixed thereto at Clayton, Missouri, addressed
to:

Eric Schmitt
Attorney General
Office of the Missouri Attorney General

PO Box 899
Jefferson City, MO 65102
Dated this 1st day of June, 2021.

Resp Gen —

. SCHRIENER
(Counsel of Record)
Law and Schriener, LLC
141 North Meramec Avenue, Suite 314
Clayton, Missouri 63105
(314) 721-7095 — telephone
(314) 863-7096 — facsimile
kschriener@schrienerlaw.com

Counsel for Petitioner
